<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: STATUS OF BUREAU OF THE CENSUS OPERATIONS AND ACTIVITIES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




OVERSIGHT OF THE 2000 CENSUS: STATUS OF BUREAU OF THE CENSUS OPERATIONS 
                             AND ACTIVITIES

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2000

                               __________

                           Serial No. 106-148

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
66-613 CC                    WASHINGTON : 2000





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
PAUL RYAN, Wisconsin                 DANNY K. DAVIS, Illinois
MARK E. SOUDER, Indiana              HAROLD E. FORD, Jr., Tennessee
------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                       Jane Cobb, Staff Director
              Lara Chamberlain, Professional Staff Member
                           Amy Althoff, Clerk
           David McMillen, Minority Professional Staff Member




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 8, 2000....................................     1
Statement of:
    Prewitt, Kenneth, Director of the Census, accompanied by John 
      Thompson...................................................    19
Letters, statements, et cetera, submitted for the record by:
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Letter dated March 8, 2000...............................    11
        Observation Guidelines for Census 2000 Operations........    61
        Prepared statement of....................................    17
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     5
    Prewitt, Kenneth, Director of the Census:
        Letter dated March 20, 2000..............................    45
        Prepared statement of....................................    25

 
OVERSIGHT OF THE 2000 CENSUS: STATUS OF BUREAU OF THE CENSUS OPERATIONS 
                             AND ACTIVITIES

                              ----------                              


                        WEDNESDAY, MARCH 8, 2000

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Ryan, and Maloney.
    Staff present: Jane Cobb, staff director; Timothy J. Maney, 
chief investigator; Chip Walker, communications director; Erin 
Yeatman, press secretary; Lara Chamberlain, professional staff 
member; Amy Althoff, clerk; David McMillen and Mark Stephenson, 
minority professional staff members; and Ellen Rayner, minority 
chief clerk.
    Mr. Miller. Good afternoon. A quorum being present, the 
subcommittee will come to order, and we will proceed. It is my 
understanding there may be a vote around 2 o'clock, so we may 
have to take a vote break at that time.
    Good afternoon. Today, we are here to examine the ongoing 
operations for the 2000 census. In our monthly public review of 
this process, once again, Dr. Prewitt, Director of the Census 
Bureau is before us, and next week the GAO will come before the 
subcommittee as well.
    Since our last hearing, there have been several new 
developments that have not been positive. The Salvation Army 
has declined to let Census enumerators into homeless shelters 
and soup kitchens. If there is any way that we in this 
subcommittee can assist you in this matter, Dr. Prewitt, or in 
any similar matters, please let us know.
    There are also serious recruiting shortages across the 
country in a number of hard-to-enumerate areas. And we are all 
aware of the very serious addressing error of approximately 120 
million prenotification letters.
    Also today, this subcommittee will address the lack of 
access to the Census Bureau operations and information for the 
subcommittee, the General Accounting Office and the Census 
Monitoring Board.
    Just last week, I spoke to the GAO, who complained of lack 
of access and delayed responses to information requests. The 
GAO made it clear to me that much of the information they 
requested should be readily available to regional and local 
managers if they are truly getting the timely information they 
need to make daily decisions in the field.
    The Census Monitoring Board fights tooth and nail to get 
information it needs to conduct its oversight responsibilities. 
The Census Monitoring Board was set up under agreement with the 
President to assist Congress in its oversight duties. Employees 
of the Census Monitoring Board are Title 13, sworn and entitled 
to all information just as this subcommittee or the GAO is. 
Currently, the Census Monitoring Board has more than 30 
requests outstanding, refused, or delayed more than 60 days for 
information with the Bureau. Director Prewitt, this is 
unacceptable.
    The experience of my own subcommittee has been troubling as 
well. Critical information such as recruiting numbers or 
contact information has not been provided in a timely manner. A 
recent request made to obtain the Bureau's recruiting numbers 
took almost 2 weeks to be answered.
    Rather than just provide us the information we ask for, 
different delaying tactics seem to be used. In some cases, the 
subcommittee has been questioned as to what we plan to do with 
this information. This turns the role of Congress and 
government agencies on its head. This is the people's census. 
This subcommittee has a right to any and all information we 
deem appropriate.
    While some at the Bureau may feel that oversight entities 
are a burden on the Census process, you must understand that it 
is our legal responsibility to investigate, evaluate and assess 
the hundreds of activities that involve the expenditure of $7 
billion of public funds to carry out the constitutionally 
mandated decennial census.
    The combined resources of this subcommittee, the GAO and 
the Census Monitoring Board is barely sufficient to oversee the 
massive undertaking of the Census Bureau. As you have so 
accurately noted, this is the largest peacetime mobilization in 
our Nation's history, with hundreds of thousands of workers and 
520 local Census offices.
    The combined resources of the subcommittee, the GAO, the 
Census Monitoring Board and the Inspector General pale in 
comparison to the Bureau's massive operations. We are talking 
about roughly 42 people between the IG, the GAO, the Census 
Monitoring Board and the subcommittee overseeing the 520 Census 
offices, hundreds of ongoing Census operations, more than 
800,000 positions and $7 billion in expenditures.
    By now, I am sure you are aware of my concerns regarding 
the unprecedented stalls and delays in gaining access to basic 
information. I am requesting your help in breaking down these 
barriers so that we--in Congress, the Census Monitoring Board, 
the GAO and the IG--may fulfill our responsibilities under law 
and in an efficient and timely manner.
    Director Prewitt, you made a pledge that this would be a 
transparent Census. Unfortunately, it has been rather opaque. 
In light of these access issues, I have found it necessary to 
call a hearing specifically on the lack of proper access. This 
will be held on March 23 at 2 p.m. I hope these access concerns 
are sufficiently resolved well beforehand.
    Last month's revelation of the addressing error made by 
Freedom Graphic Systems on the prenotification letter is a 
serious matter. The Census Bureau has spent the better part of 
this decade developing its Master Address File.
    The heart of the Census is a good address list, because the 
bulk of enumeration is based on mail-out/mail back responses. 
Now this error doesn't appear to be contained within the MAF 
itself. However, the fact that the addresses were misprinted is 
still troubling. Regardless of how good the MAF is, if the 
addressing is compromised anywhere along the process it can 
still pose serious and, in some cases, crippling problems. This 
error underscores the serious need for aggressive oversight by 
this subcommittee.
    While I have publicly urged those receiving Census forms to 
read them, no matter what the address they may read on the 
envelope, and while the Postal Service has said it will deliver 
the letters to the correct addresses, I cannot share your 
determination that this error is cosmetic and not operational.
    I don't believe that anyone knows if a misaddressed 
envelope sent to ``Resident'' is less likely to be read than it 
otherwise would have been. The importance of the 
prenotification letters to the hard-to-enumerate communities, 
especially those not speaking English, is high.
    The prenotification letter also allows those speaking one 
of five other languages besides English, to choose that 
language for the Census questionnaire. Unfortunately, there may 
be another problem emerging from this mailing list. The 
Washington Times and other newspapers are reporting today that 
it now seems those who speak only English are confused by the 
lack of explanations for the mailing and the return envelope 
inside. The subcommittee understood that these mailings had 
been fully tested in focus groups. The subcommittee will 
certainly want to see the focus group testing results to 
understand how this mailing was developed.
    In light of these concerns, the subcommittee will be 
investigating this matter fully. We are enlisting the support 
of the Commerce Department's Inspector General, as well as the 
General Accounting Office.
    This error also, once again, casts doubt on the ability of 
the Census Bureau to carry out one of the most complicated 
statistic experiments ever, better known as A.C.E.
    I would like to publicly thank the U.S. Postal Service. The 
Postal Service has already stepped up to the plate to help the 
Census Bureau and, in fact, America, by making a pledge to 
deliver the misaddressed letters to the proper households.
    Dr. Prewitt, we all know hiring is so critical to a 
successful Census. You note that nationally the hiring is going 
according to schedule; however, when one looks at hiring 
locally, a different picture emerges.
    In recent weeks, the subcommittee staff has visited local 
Census offices that are having severe hiring problems in San 
Diego, Los Angeles, San Francisco and the Salt River Indian 
Community outside of Phoenix. Similar problems are found by the 
Monitoring Board in New York City.
    To be fair, these visits also found local Census offices 
that were ahead of schedule, in Long Beach and Tukwila, WA. 
However, it is the ones behind schedule that have us concerned. 
Here in DC, the recent stories in both the Washington Times and 
the Post have highlighted local hiring shortages. In fact, 
recent news reports have caused Delegate Eleanor Holmes Norton 
to call for an emergency meeting among local officials to solve 
this problem. An emergency job summit will be held later this 
month, and I applaud Ms. Norton on her quick action.
    I am not totally convinced that the Bureau has a handle on 
this hiring problem. Looking at hiring nationally does not give 
one a true sense of where we stand. I hope you can shed some 
light on these important local hiring issues. Many of these 
communities are hard to locate and count.
    Again, Dr. Prewitt, thank you for coming before the 
subcommittee, and we look forward to the opportunity to ask 
some questions.
    Mrs. Maloney.
    [The prepared statement of Hon. Dan Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T6613.001
    
    [GRAPHIC] [TIFF OMITTED] T6613.002
    
    [GRAPHIC] [TIFF OMITTED] T6613.003
    
    [GRAPHIC] [TIFF OMITTED] T6613.004
    
    Mrs. Maloney. Thank you, Mr. Chairman.
    Welcome again, Dr. Prewitt.
    As the Census Bureau begins the most intensive operations 
of the 2000 census, Congress and the American public need to 
stay informed on the progress of the largest peacetime 
mobilization in American history.
    I am happy to say, from reading your testimony, Dr. 
Prewitt, that it appears that the 2000 census operations are on 
schedule, and as of today, there are no major problems. A year 
ago, many prophets of doom questioned the likely success of the 
2000 census. While we are far from done, I think we can all 
take pride in the excellent work of the career professionals at 
the Census Bureau in successfully meeting the major milestones 
to date.
    Dr. Prewitt, some might have scoffed if you had appeared 
before this committee a year ago and predicted that today the 
Census Bureau would have all 520 local Census offices up and 
running, fully equipped, with computers and telecommunications 
installed and totally operational; that the Master Address File 
of 120 million addresses, which may be the most complete ever, 
due to improved processes, including LUCA and new construction 
programs, would be completed and in use; that one of my 
favorite initiatives, the Census in the Schools Programs, would 
have exceeded its original goals and sent out over 1.3 million 
teaching kits to schools around the Nation; that the telephone 
questionnaire assistance centers would be opened, running and 
fully operational; that the data capture centers and the 
software they use would be tested and already processing forms; 
that questionnaires would already be delivered to rural areas; 
that questionnaires would already be filed through the 
Internet; that over 90,000 partnerships between the Census and 
cities, towns, businesses and churches would be up and running; 
that the highly acclaimed paid advertising campaign would now 
be going into full gear.
    In the interest of time, I won't keep going through all of 
the lists of initiatives that your office has put into place, 
but I do want to mention my new favorite Census promotional 
tool, the Census Promotional Tour Bus that is on the road and 
educating people.
    I spent a day riding around my region on the bus, talking 
to people. I think it is absolutely an excellent tool. I wish 
we had more of them in our areas or regions across the country. 
I think they are very, very effective.
    I am sure there are some even in this room who would have--
well, let us be polite--questioned you for being overly 
optimistic. More importantly, even a few months ago, if you 
would have told this committee that recruiting would be above 
target and going well, I can only imagine what some would have 
said. While there are places in the country that have 
recruiting problems, on a national level, recruiting is above 
target.
    Given the Clinton-Gore prosperity our Nation is currently 
experiencing, with historically low unemployment levels, the 
success of the Bureau's recruiting efforts is all the more 
remarkable.
    I don't want to imply that things are perfect, because 
there is still a great deal of work that needs to be done, and 
we know there will be problems. The recent mishap with the 
addressing of the notification letter is an example. I would 
like to mention that I did receive my letter; I have it right 
here. It came over the weekend, so it came to my home, and it 
was delivered.
    I am pleased that the Post Office reports that there have 
been no operational problems with this mailing, and they should 
be commended for the extra effort taken to ensure that all 120 
million letters arrived on time.
    But on the whole, we are in as good as shape as one could 
hope, given our recent history and given the fact that the 
Census Bureau had to revamp its program only last year to 
integrate $1.6 billion worth of additional effort as a result 
of litigation by the opponents of modern statistical methods.
    In fact, I would say that one reason the Census is on track 
as of today is because many of us in Congress and President 
Clinton resisted the efforts of some to micromanage the Census 
and left that up to the professionals in the Census department.
    I would only hope that as we proceed and problems develop 
that we can keep all the people looking over your shoulder--
this committee, the Monitoring Board, the GAO, the IG, the 
National Academy of Sciences and the advisory groups--that we 
can keep them over your shoulder and out of your lap, so that 
you can do your job without being disrupted.
    Mr. Chairman, I know you share my concern that we cannot 
harm the Census with overzealous oversight. While we should 
conduct oversight, we cannot afford to do so in such an 
overpowering way that the staff of the Census Bureau cannot get 
their job done.
    And in talking about oversight, I would like to really put 
in the record the cochair of the Census Monitoring Board, Mr. 
Blackwell's letter, which he carbon-copied to many people, but 
he left me out, in which he notes 31 areas, centers that he 
wants to see. I would like that in the record along with my 
comments.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6613.005
    
    [GRAPHIC] [TIFF OMITTED] T6613.006
    
    [GRAPHIC] [TIFF OMITTED] T6613.007
    
    [GRAPHIC] [TIFF OMITTED] T6613.008
    
    [GRAPHIC] [TIFF OMITTED] T6613.009
    
    Mrs. Maloney. Again, as we proceed, there will be problems, 
big and small, but I would remind everyone that this is a 
massive, complicated process. I read in today's Washington 
Post, and I have--they have an article here, a small article, 
that a few hundred people out of the 120 million contacted 
complained they were confused about the postage-paid envelope 
included; for those who know what they are reading--and that 
story is good news--33,000 envelopes were returned from people 
requesting language forms on the first day.
    In America, to have a few hundred people call and complain 
about a mailing to 120 million people is pretty good, 
especially if it guarantees Americans with limited English 
skills can respond to the Census.
    As I said, Mr. Chairman, I am happy to learn that the 
timetables and tests for the 2000 census are currently on 
track. I look forward to hearing the details of the many Census 
operations from our witness, Director Prewitt.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED] T6613.010

[GRAPHIC] [TIFF OMITTED] T6613.011

    [Witnesses sworn.]
    Mr. Miller. The record will identify that all three 
answered in the affirmative. And, Dr. Prewitt, your opening 
statement.

     STATEMENT OF KENNETH PREWITT, DIRECTOR OF THE CENSUS, 
                  ACCOMPANIED BY JOHN THOMPSON

    Mr. Prewitt. Yes. Thank you very much, Mr. Chairman. I do 
have an opening statement. I will try to go through it quickly. 
I might say that it does not address the issues raised in your 
opening statement; instead, it addresses the issues that are of 
course in the invitation letter.
    I would hope that before the hearing is completed, I will 
have a chance to address the issues you raised in your opening 
statements.
    Mr. Miller. The first set of questions.
    Mr. Prewitt. Thank you. Let me start by identifying the 
major operations and preparation for census 2000 that have been 
successfully completed so far, to reiterate some of the things 
that Congresswoman Maloney just mentioned.
    The Master Address File of 120 million addresses is, of 
course, complete and we think quite accurate.
    Our field network of 12 regional offices and 520 Census 
offices, local offices, are open and are hard at work.
    We printed 85 different Census forms, which will go to the 
addresses in our address file, and developed and implemented 
our ambitious paid advertising campaign and signed up 90,000 
partners.
    All of this happened without a glitch? No, of course not. 
There were endless issues, large and small, that had to be 
resolved.
    The Census is a vast, multipart, rapidly moving system 
involving hundreds of operations and hundreds of thousands of 
temporary employees. On a daily basis, we have to deal with 
problems such as the fire in one, flood in another of our local 
Census offices, the need to develop special procedures for 
handling the temporarily displaced persons from the North 
Carolina flood, to deal with the issue that you addressed in 
your own opening comments, the Salvation Army response to our 
attempt to count in their soup kitchens, the backlogs caused by 
the higher-than-expected demand for Census in the Schools, two 
separate bomb threats in a local Census office, a misspelling 
on a poster, public confusion among some English-speaking 
residents about the lack of instruction in the advance letter.
    Indeed, another small issue that has come up--and I want to 
thank you and Mrs. Maloney for your statements concerning 
this--was the recent mailing that appeared to mimic an official 
Census form, but in fact, was simply a fundraising device.
    We are very concerned that the deceptive mailings could 
reduce mail response by sowing confusion about what is or what 
is not an official Census form. The point is, we are in the 
process of successfully dealing with each of these issues, and 
the list is far from exhaustive. New ones will take their place 
tomorrow and the next day and every day until the census is 
completed.
    While such issues require attention and resources, while 
they can be frustrating, while they often generate news stories 
we then try to correct, they are not of a nature to put the 
census at risk. Such an issue could arise, but to date it has 
not. Indeed, the most significant issue to date has been the 
addressing error on the advance letter, but as we all know, 
this was not of a character that put the census at risk. And I 
will address in more detail, of course, the issue of the 
advance letter in the question-and-answer period, if you wish.
    I should say that all of our indications are that the 
advance letter is being correctly mailed and, indeed, it is 
being read. I will give you one indicator of that, sir, the 
advance letter has a website address which is a job website 
address. Prior to the mailing of the advance letter, we were 
running about 100,000 hits a day to that website. The last--
yesterday or the day before yesterday, last time I was able to 
get the data, there were 1 million hits on that website, 1 
million hits. That is in a multiple of 10, so that suggested to 
me that people are reading the letter and responding to it. And 
as the Congresswoman just said, we are already getting a flow 
of requests for our language forms.
    We have taken additional steps in our advertising campaign 
with our community partners and through the media to stress the 
importance of the advance letter. We have done this because we 
do stress its importance, particularly because of the fact that 
it is the vehicle for getting a language form; but also because 
it is a way to address the job issue, and it is a way to 
increase awareness, although I can say that awareness right now 
is very high about the census.
    The point is that when I last testified to you, I pledged 
to you that I would bring to your attention any problems in the 
implementation of census 2000 that, in my judgment, could put 
the census at risk. After that testimony, I subsequently 
advised you by letter of the several categories in which a 
serious or systemic problem could occur in the current 
timeframe, that is, between that testimony and today.
    In that letter, I identified the fact that we had to launch 
our update/leave operation, and that if we were unsuccessful in 
launching that, that would be serious. I addressed the fact of 
possible problems with our payroll system, our problems filling 
our enumerator positions, our address file problem that would 
prevent our employees from being able to fulfill their 
responsibilities, or a breakdown in the telephone questionnaire 
assistance operation. All of those operations had been launched 
on schedule and successfully. It doesn't mean something won't 
happen tomorrow, but as of today, there is simply nothing going 
on in the Census operations that puts the census itself at 
risk.
    I want to add to that list because a lot of new things are 
going to happen between now and the next testimony--and I now 
refer to the March 29th testimony when I am scheduled to 
testify before a different committee, that is, the House 
Appropriations Subcommittee of which you are a member, of 
course, Mr. Chairman.
    By March 29th, we expect to complete the update/leave 
operation, mail out the questionnaires in the mailout/mailback 
areas, begin the data capture process, start enumeration of 
special populations, and begin reporting to the Nation the 
mailback response rate as part of our ``90 Plus Five'' 
campaign.
    Major problems could develop during this period, including 
breakdowns in data capture systems or in questionnaire 
delivery, unexpectedly low mail response rates, any event that 
could undermine faith in the confidentiality of the data, such 
as a hacker on our Internet site, or a failure to meet our 
promise to provide the mailback response rate to the public.
    I don't anticipate those happening, but I want to put them 
on the record as the categories of things that I would quickly 
get to your attention if we begin to experience serious 
problems.
    So I today renew my pledge to keep you informed should 
major census-threatening problems develop in these areas or any 
others. I am not anticipating such problems. I expect our 
scheduled hearing will keep you apprised of any potential 
changes needed to ensure that census 2000 data are of the 
highest quality.
    You specifically asked, of course, about a number of 
operations. I will try to cover those quickly. You asked about 
the status of the census 2000 operational timeline, and 
readiness for key activities. As I mentioned already, we began 
the update/leave operation on March 3rd, as planned. We are 
running today slightly ahead of schedule in terms of getting 
the update/leave questionnaires out. Census enumerators are 
leaving questionnaires at approximately 24 million housing 
units, including Puerto Rico, that have several different 
address types.
    Telephone questionnaire assistance centers also began on 
March 3rd, and will run through June 8th with six toll-free 
telephone numbers in English, Spanish, Chinese, Korean, 
Vietnamese and Tagalog, where people can call to get assistance 
in filling out their questionnaires, get language assistance 
guides or provide their Census questionnaire information over 
the phone. Indeed, we have already recorded 500 short forms 
over the telephone system. The questionnaire assistance center 
is up and running. That doesn't mean we won't have a problem 
with it tomorrow, but as of today, I am confident that we are 
able to handle the flow of telephone calls.
    We have also identified 27,000 sites for our questionnaire 
assistance center operations. And as I already mentioned, we 
have already mailed the advance letter, and in 5 days--indeed, 
sometimes the Post Office gets a bit ahead of us, so I am 
already getting reports that some forms are out--but in 5 days, 
from March 13th to March 15th, the Postal Service will deliver 
questionnaires to some 98 million addresses in the mailout/
mailback areas. These questionnaires are all at the postal 
delivery centers and are ready to be delivered.
    Also, beginning March 13th and continuing through March and 
April, Census enumerators will visit about half a million 
housing units in our list/enumerate areas, in an operation 
similar to that initiated in Alaska on January 19th. These are 
the remote, sparsely populated areas where it is not efficient 
to compile a pre-census address list.
    And then on March 20th, we will mail out a reminder card to 
those housing units we are asking to return a form by mail. 
Many will already have mailed back their form, but this 
reminder card will spur others to do so as soon as possible.
    So those are some of the things that are already in place 
and then some things that we anticipate in the next several 
weeks, all of which are reasonably large categories of things. 
I want to put those things in one pile and the kinds of other 
problems we deal with every day, all day long, in a separate 
pile; they are simply different kinds of things.
    We are dealing with the small issues as best we can as we 
go. They are the ones that stir the press reports, but they are 
not of the sort that are putting the census at risk.
    You asked in your letter of invitation about the status of 
hiring goals. Hiring continues to progress well. All hiring 
goals for the update/leave operation have been met; that is, we 
now have 73,000 people out there doing the job. Our goal is to 
have a qualified applicant approval of 2.4 million individuals, 
and as of today, or as of Friday when we collected these data, 
we had recruited over 1.8 million qualified applicants, 74 
percent of those who are needed, and slightly ahead of our goal 
from March 1, which is 70 percent.
    Of course, not every office is on target, and for these, we 
take special steps. These steps range in intensity based upon 
where a local Census office is in relation to the goal. If an 
office is below, but near the goal, for example, we increase 
the recruiting staff, distribute fliers, use targeted postcard 
mailings or seek help from our partners. If an office is at 
less than 75 percent of the goal, we intensify the activities, 
including things like neighborhood blitzes, making special 
appeals to community-based organizations, and bringing in 
outside expertise with respect to recruitment. As a last 
resort, we are prepared to raise wages to assure an adequate 
pool of workers.
    Of course, we concentrate these efforts depending upon the 
task at hand and, thus, first made certain that the local 
Census offices with heavy update/leave operations had 
sufficient staff. They did and do in every case. Now, of 
course, our attention turns to nonresponse followup due to 
start April 19th.
    Given the time available, the fact that we are front 
loading, and the capacity to take extraordinary steps if 
necessary, being able to staff the Census operations is not 
what is currently keeping me awake at night; other things are, 
but that is not.
    You asked us to address the status of data capture systems, 
including recent test results and the subsequent migration to 
the ``two pass'' system. The Census Bureau recently completed 
the final operations test and dry run according to plan in a 
preproduction operations test at all four sites.
    During the operations test and dry run in two of our sites, 
we learned that key data required for many write-in items and 
some check-box entries was taking longer than originally 
estimated. Based on these test results, we have implemented a 
two-pass processing system. In the first pass, we will capture 
the 100 percent data that is asked of everyone and some of 
which is necessary to provide the constitutionally mandated 
apportionment numbers to the President. In the second pass, we 
will capture the sample data from the long forms.
    This approach ensures that we will meet all processing 
deadlines and provides us with some staffing contingency. The 
decision has no impact on the schedule for the release of 
information for apportionment and redistricting, and only 
minimal impact on the release of sample data.
    During the four-site test, staff introduced and 
successfully tested the first pass of the ``two pass'' software 
for the 100 percent data items. And we are developing the 
testing schedule for the second pass.
    You asked about any difficulties in confronting local or 
regional Census offices. All local Census offices and regional 
offices are functioning, that was my report 10 minutes ago. 
There could have been a fire in the last 10 minutes, there 
could have been a flood; you don't know; 520 is a large number 
of entities, something happens to one of them almost every day. 
But as of right now, they are all up and functioning.
    We are working closely with GAO, where we have specific 
problems, like the water problem in the New York city office. 
But the key thing is they are there. They all have their 
telephone installations, and they are handing calls on 
schedule.
    You asked about preparation issues concerning Internet 
response to census 2000 short form questionnaires. Internet 
data collection and questionnaire assistance began on March 
3rd. For the first time, the Census Bureau is providing 
questionnaire assistance over the Internet and the option of 
answering the short form questionnaire via the Internet. The 
questionnaire assistance effort provides on-line help to 
respondents who need help in completing either a traditional 
paper questionnaire or the web-based Internet short form, as 
well as providing answers to frequently asked questions about 
census 2000.
    Of course, the Internet data collection option allows 
respondents to answer an English language version of the short 
form questionnaire over a special secure Internet website, if 
they can provide a valid housing unit identification number 
from the paper questionnaire.
    Indeed, using the bar code from my correctly delivered 
advance letter, I completed my form the other night in less 
than 3 minutes on the Internet. Internet data collection will 
operate until April 15, 2000. The questionnaire assistance part 
of the operations will end the first week of June.
    You asked about the status of and issues concerning 
questionnaire assistance centers and ``Be-Counted'' 
questionnaire sites. Our partnership staff are working with 
community groups, business leaders and local government 
officials to identify the Be-Counted sites appropriate to each 
community. Staff have confirmed over 15,000 sites at these 
locations, which will operate from March 31 to April 11. People 
who believe they did not receive a census form, believe they 
were not included on the census questionnaire returned by their 
household, or have no usual address on census day will be able 
to pick up a Be-Counted questionnaire.
    The staff have also identified over 27,000 questionnaire 
assistance centers, which will operate from today through mid-
April and will provide assistance to individuals who might have 
difficulty completing the questionnaire because of language or 
other barriers. Sites include, but are not limited to, 
community and civic centers, banks, libraries, schools, grocery 
stores, health centers, and places of worship.
    We have selected and trained paid clerks, and we are 
seeking additional volunteers. We use our paid clerks based on 
their ability to provide appropriate language or literacy 
assistance in communities that need this type of support. All 
individuals providing assistance at questionnaire assistance 
centers, whether paid or voluntary, have been sworn to protect 
the confidentiality of individual information on the 
questionnaires.
    The Census Bureau was selective in training staff to serve 
as Be-Counted clerks in the local Census offices. These clerks 
will conduct advance visits to all sites to ensure their 
suitability, set up the sites, resupply forms as necessary and 
close down the sites at the end of the operation.
    Unlike questionnaire assistance centers, the Be-Counted 
sites are not staffed. They simply are places where people can 
pick up a form and mail it back.
    Mr. Chairman, in conclusion, I repeat at this point, 24 
days from census day, I am aware of no serious problem that 
would put the census at risk. The next month is crucial. I 
cannot promise you that serious problems will not occur; I can 
only promise to keep you informed. The timing was just right.
    Thank you, sir.
    [The prepared statement of Mr. Prewitt follows:]
    [GRAPHIC] [TIFF OMITTED] T6613.012
    
    [GRAPHIC] [TIFF OMITTED] T6613.013
    
    [GRAPHIC] [TIFF OMITTED] T6613.014
    
    [GRAPHIC] [TIFF OMITTED] T6613.015
    
    [GRAPHIC] [TIFF OMITTED] T6613.016
    
    [GRAPHIC] [TIFF OMITTED] T6613.017
    
    [GRAPHIC] [TIFF OMITTED] T6613.018
    
    [GRAPHIC] [TIFF OMITTED] T6613.019
    
    Mr. Miller. We are going to recess around 2.
    Your statement just outlines how complex and huge an 
undertaking the decennial census is. It is impressive that you 
and the people at the Census Bureau are able to pull it all 
together as we get close to the official census date.
    But to begin with, I mentioned in my opening statement this 
question of access. This has been a concern and problem from 
day 1, since I got involved over 2 years ago, with the 
formation of this committee, and we have talked about it. I 
brought it up last week in Appropriations with Secretary Daily.
    As we begin to approach some very critical parts of the 
whole census over these next several months, I think we need to 
make sure we have complete access to the information that is 
needed to do what is lawfully required of our oversight 
responsibilities. We are talking about $7 billion of taxpayers' 
money and something that obviously has a major impact on this 
whole country for the next decade.
    I come from the private sector. I was never in government 
before, and I used this analogy sometimes of being the auditor. 
I see these reports coming out of here on guidelines that the 
Bureau is giving us, and to me, if I was a private auditor and 
doing this in the private sector, I would quit the job. It 
would not be even acceptable. It would be totally unacceptable 
under any CPA guidelines.
    I think it is almost arrogant the way this is written, 
because it is telling us and the other oversight agencies of 
government, which include the Inspector General--and I haven't 
really talked directly with the Inspector General Office, the 
Census Monitoring Board, the General Accounting Office--what we 
can and can't do. And I thought we were the elected 
Representatives of government.
    I know you are appointed by the President, but we do have 
legal responsibility for oversight; and we also, because of the 
$7 billion, have a responsibility to see that. The Monitoring 
Board was created in cooperation with the President to have the 
responsibility, and as you know, we are talking about maybe 40 
some people, total, in all four agencies that are going to be 
involved in the census issue. And we are talking about 520 
offices and hundreds of thousands of employees at the Bureau.
    So I am concerned about the access. I am concerned about 
the delaying tactics that have been used over the past year or 
so--and I know there are Commerce Department political 
operatives that kind of hold things up. We always get different 
excuses. This can't continue, and when we get into the critical 
time in the summer, it is going to be important that we have 
access.
    Let me give you one illustration. One of things that people 
talk about, and I don't believe this is true, but I am saying 
this comes out, is that there is going to be an interest in not 
being successful with the full enumeration so we have to use 
adjustment. I think you are too professional and so is the 
Bureau, but there are those that say they are going to not do a 
very good job in the enumeration so we have to do an adjusted 
census. And the problem is, when you get to closeout, I think 
it was 16 weeks in 1990, you are going to do it in 10 weeks and 
you will have an extra 10 million people to do it. You can 
close out in 10 weeks, just the quality of data may be not that 
good; you might or might not know that.
    The question is, with our oversight responsibility, we want 
to make sure, for example, that when we do a closeout, it is 
done right. If we have to give 2 weeks' notice in every case 
because you require it, how can we do the oversight? Should we 
just, say, trust you with $7 billion?
    I am concerned. The General Accounting Office has spoken to 
me about it. The person, in fact, who was going to be 
testifying next week will raise the question. He has never had 
this type of experience in his 17 years in the General 
Accounting Office. So I think we need to have it clarified, 
what we can and can't do. We certainly don't want to interfere 
with what is operating.
    But some of these--for example, you have to have a regional 
director or an assistant regional Census manager accompanying 
anybody that shows up at an office? You are going to waste 
everybody's valuable time when somebody wants to stop in to see 
you.
    I think you have created a bureaucratic mess with these 
rules and regulations. I think you should be open. If you want 
to be transparent, you need to make it available. Sometimes it 
takes us weeks to get information. So we are going to have a 
hearing on it in a couple of weeks.
    I would also like to recommend that you or someone senior 
in the decennial census have a meeting with all four agencies 
involved, which would include the Monitoring Board, the 
Inspector General, and GAO to make sure that we all understand 
and can work this out.
    And now you may please respond.
    Mr. Prewitt. Thank you.
    The closeout process for the moment, I would like to 
address those. But I will not make those direct. Let's talk 
first about the----
    Mr. Miller. I am just using that as an illustration.
    Mr. Prewitt. Let us talk first about it. I am only going to 
mention that because some of the facts you used about 1990 were 
not exactly correct. I would like to make the record right, but 
I would like to address the access issue as best I can in a few 
moments. Since I became Director in late October, there have 
been approximately 10--depending on how you count, 10 or so 
major GAO reports. And I happen to have most of them here with 
me, and in not a single one of those reports, Chairman Miller, 
is there any expression of concern about the cooperation of the 
Census Bureau.
    It has never been put in a report. Indeed, based on my 
experiences, perhaps, the most intense and detailed 
investigation of the Census Bureau in its history was in August 
of last year, when we were in the middle of trying to put our 
operations together--as you know, I had to write you about it. 
I was so concerned about the amount of time it was taking of 
our senior management. If the GAO investigation continued at 
that level, it could indeed put the census at risk.
    But speaking of cooperation, let me read you a sentence 
from that report.

    We provided a draft of this report to the Department of 
Commerce for comment. As requested, the Director of the Bureau 
of the Census provided written comments on behalf of the 
Department in 2 days. This was a thick report. We appreciate 
the Bureau's rapid response to the draft and its overall 
cooperation and timely response to our data requests.

    In this entire stack of reports, that is the only place at 
which the GAO addressed the issue of cooperativeness with its 
agencies and investigations. And it was a completely positive 
statement, not a negative statement. Yet now we are told by the 
same agency that we have an unusually poor record of 
cooperation.
    Let me say one other thing about this report. They focus on 
preparations, as they should have, in the period leading up to 
the census; not a single one of them alerts us to an area in 
which, in fact, we are ill prepared, that is, how to 
simultaneously do a census and explain what we are doing in 
real-time to our oversight agencies.
    We have a huge number of requests for site visits in the 
next 3 weeks. The Monitoring Board is only one of them. The GAO 
reports have never said to us over the last 2 years, ``Look, 
you better put in some extra staff just to deal with the 
oversight apparatus.''
    So if their intent was to help us prepare for the census, 
the one thing they did not help us prepare for and didn't even 
ever address was the question of how can you staff up in the 
middle of a census for all of the oversight apparatus that is 
going to come your way? I would have loved it if they would 
have given us some kind of an advance warning on this.
    Let us not talk just about the past. I would like to tell 
you what GAO has asked for and what we are providing.
    GAO has asked for our cost and progress system, which 
reports on 55 operations at every level of geography and 
operations. This includes, for example, the number of persons 
recruited, the number of persons hired for each operation by 
their preemployment status--employed, retired, including target 
recruitment pools, such as Welfare to Work beneficiaries, 
persons under special waivers for noncitizens, Federal 
assistance annuitants, current Federal employees, recipients of 
public housing assistance and any other waivers that may become 
available to the Bureau, the number of employees quitting, 
resigning, terminated, involuntarily separated, et cetera, 
actual staff turnover rates, number of applicants in various 
stages of hiring, and so forth. That is just under labor force 
participation.
    Then in our production system, this cost and progress data 
includes total case load assumptions for each and every 
questionnaire delivery operation, that is, update/leave, list/
enumerate, update/enumerate, urban update/leave, et cetera, 
number of possible mailback responses for all questionnaire 
deliveries, separate accounts for the number of mailout 
undeliverables, initial total case load for nonresponse 
followup, subsequent estimate of total NRFU--nonresponse 
followup--case load, incorporating late mailback responses, 
number of hours worked, training hours, overtime hours, total 
earnings, number of employees receiving----
    Mr. Miller. Excuse me. There is no question there are lots 
of requests. You don't need to read every single item, we don't 
have time. I understand.
    Mr. Prewitt. I mean, I just started with this one.
    Mr. Miller. You are welcome to do that, but I will tell 
you, then we don't have--should you decide what oversight we 
should have?
    Mr. Prewitt. No, sir. I will turn to that question. I would 
like to answer that question.
    The data that they have requested, and that we are 
providing we are providing in real-time, is a terabyte of 
information, a terabyte. It is hard to know what a terabyte is 
if you can't visualize it. It is the equivalent of 16,000 CD-
ROMs, or if the imagination is still focused on a paper record, 
this is the Yellow Pages of the Washington, DC. A terabyte is 
not 50 of these or 500 of these or 5 million of these, a 
terabyte is 50 million of these. That is how much information 
we are giving to GAO.
    Now, if providing in real-time the equivalent of 50 million 
phone books, or 16,000 CD-ROMs, is being uncooperative, I would 
hate to think what the more cooperative agencies are providing 
to the GAO.
    But now let me address your straight question, whose job is 
it to decide what oversight is? It is not mine. It is certainly 
yours; it is the U.S. Congress'. I appreciate that. Obviously, 
the Congress needs this information to discharge its oversight 
responsibilities, that is, the terabyte of information in real-
time over the next 10 weeks.
    But I have to pose the question to you, do you need it in 
real-time on the assumption that somehow the census can 
actually be managed on a daily basis by the U.S. Congress? For 
example, in your opening comment----
    Mr. Miller. I am well past my 5 minutes. I have gone over 
10 minutes.
    Mr. Prewitt. With permission, I said you addressed this at 
some length----
    Mr. Miller. Right, right.
    Mr. Prewitt [continuing]. In your opening comment. You 
addressed the error on the address letter. Now, do you want to 
know about that in real-time in order to fix it? Because it 
can't happen that way. You can't fix problems with a GAO 
process. You can't manage the census that way.
    You can exercise oversight. You can exercise whether we 
have committed fraud or inefficiencies or corruption, 
mismanagement of funds. But it is very hard for me to imagine 
why you need a terabyte of information in real-time. We are 
providing it, at some extra costs to us, to get it all to you 
on time and to the GAO.
    Mr. Miller. Our responsibility is concerning fraud. I 
mean----
    Mr. Prewitt. No, no. I am just saying that if the GAO's 
task is to see if we have appropriately spent the taxpayer 
dollars, they will be able to do that, because all of this 
information is available. You know, Mr. Chairman, you said very 
wisely--I thought very wisely, as a matter of fact--some time 
ago that perhaps the job that I now hold is the job for a 
general. And I took it seriously; I seriously did. And I often 
reflected on that comment and asked myself, what would General 
Schwarzkopf do under these circumstances? If the GAO were to do 
a real-time audit of Desert Storm, to what purpose would that 
have been done?
    Let us say there was an auditor of an armed vehicle being 
positioned on the Iraqi/Kuwait border, and the GAO auditor/
judge or the operator of that vehicle did not make a competent 
reading of the GPS data; and so the auditor then said to this 
operator, ``Look, I don't think you are putting this vehicle in 
the right place.''
    The operator knows it is in the right place because he 
understands the larger strategy that is going on. He now has 
the following choice, he has to stop and explain.
    Mr. Miller. That is a crazy analogy you are using, to say 
that we are--you know, it is like going to--I will tell you 
what, we are using an awful lot of time. We just have a problem 
here.
    If it is real or perceived, it is a problem. If you want a 
transparent census, we need to feel that the people who have 
oversight responsibility, all four agencies of the government, 
have access. That is all we are asking, and so----
    Mr. Prewitt. Sir, a terabyte of information strikes me as a 
lot of transparency.
    Mr. Miller. I am telling you, a lot of people are 
complaining to me, and I am listening to the complaints from 
all the agencies. I haven't talked to the Inspector General, 
but the other ones, they are saying there is a problem. We are 
going to have this hearing. I hope you will meet with everybody 
and see if there is a better way to open up, because we are 
going to go through some critical times these next months if we 
are going to be obstructing and delaying--I mean, what the GAO 
is saying; you know, you have information, and then it takes 
weeks to still get it.
    Why are we--and I think it is just billed unnecessarily--
your staffs have built unnecessary barriers here; and it 
ultimately goes down to the Commerce Department, it sounds 
like, and then the politicians get involved. Anyway, we just 
need to avoid this problem.
    I will guarantee you--and Mrs. Maloney will come up and 
defend you here in a minute. I will tell you Mr. Waxman and Mr. 
Dingell would not have tolerated one bit of this when they were 
chairmen.
    Mr. Prewitt. We have to understand what 50 million phone 
books full of data means if that is not--in real-time, if that 
is not transparency, it is hard for me to imagine what is 
transparency.
    You, for example, quoted the fact that the Monitoring Board 
says that we have 30 outstanding requests. That is not our 
understanding. We have two outstanding requests. We get 
requests from the Monitoring Board on a constant-flow basis. 
There is always some outstanding by definition. I don't know 
where that 30 comes from.
    Mr. Miller. Actually, we will submit this for the record. 
This is something that they gave me. These are not the only 
outstanding ones. These are all the delays it takes to get 
information, and it varies--refused data requests and such. We 
have a problem. And are you denying there is a problem? I am 
just telling you, this is going to affect the respect for the 
census when we get through this process; and unless we feel we 
have access to this information, everyone is going to be 
suspect of it.
    And I really--this really upset me when I read this 
document, the arrogance of it, to say we cannot ever, unless we 
have 2 weeks' notice; I have never had any agency tell 
Congress--I mean, this is only my 8th year, and I don't do much 
oversight, but I never had anyone tell me that I have to give 2 
weeks. There isn't reason why you shouldn't. We should try in 
every effort. But here it says it is absolutely that way.
    Mr. Prewitt. Yes.
    Mr. Miller. I just----
    Mr. Prewitt. I apologize if the language was arrogant. My 
recollection of that letter is that we sent it as early as we 
could to try to create some sort of systematic way to 
accommodate all of the requests that we are getting for site 
visits, which is a large number of requests. The GAO--the 
Monitoring Board letter in the next 20 days has, as we know----
    Mr. Miller. You are going to have to fly in a regional 
director to every one of those 1-hour visits, I guess; that is 
what your policy is. That is a waste of your time and effort, 
it sounds to me. That is what you are saying: You will either 
have the regional director or the assistant regional Census 
manager accompanying. It is all of these people. They are 1-
hour visits. That is a waste of your efficiency, I think.
    Mr. Prewitt. We don't know what the visits are. We know 
that in the past the people who have been asking us for visits, 
we have had to stop the operation. We have had to set up 
training systems. We have to do things, sir. We are actually 
doing the census now. We are actually in the middle of it. As I 
just said----
    Mr. Miller. We have gone a little bit longer. I apologize 
for the time.
    Let me just ask you. We are going to have other people 
besides these agencies testifying and find out more background 
on this and what the legal requirements are so we have it 
clarified. But will you arrange for a meeting with the four 
different agencies involved, so they are all in the room 
together--maybe you have done this--and see if we can get it 
cleared up so that everybody feels that this is going to be a 
transparent census?
    You want a transparent census, I want a transparent census; 
and let us see if we can get a better working relationship.
    Mr. Prewitt. I would be absolutely delighted. I requested 
that meeting. I requested that meeting some time ago from both 
chairmen of the Monitoring Board. I never got an answer to that 
letter. I wrote you a letter in August, saying I was worried 
about this situation, and asked for a meeting. I did not get a 
response to that letter. So we very much would welcome that 
meeting.
    Mr. Miller. Let us jointly write a letter to them all----
    Mr. Prewitt. Good, good.
    Mr. Miller [continuing]. And say, let us have this meeting. 
I mean, the minority and majority sides should be involved. 
Both sides on the Monitoring Board should be involved, because 
this perception is going to get more of a problem. It may not 
be that real, but I think it is a real perception.
    Mrs. Maloney, I apologize for taking so much time.
    Mrs. Maloney. It seems to me that as the Director is 
designing and implementing the most difficult part of the 
census, he is not being criticized for the task of running an 
appropriate and thorough census; he is being criticized for not 
answering all of the questions about the job that everybody 
seems to say he is doing all right and doing well.
    And I just would like your cutoff, and I would like to hear 
more about all of these requests that you are getting to answer 
questions. Just to mention some that I am aware of, because I 
read the reports--the GAO, very thoroughly questioning; the 
Monitoring Board, they want 31 visits, what, in 2 weeks, 31 
visits.
    We weren't notified, but 31 visits they want, this 
subcommittee--I see him regularly, every week at least at a 
subcommittee meeting, it seems like--the National Academy of 
Sciences and all of their committees, and the advisory 
committees that you have set up, certainly the IGs from the 
Commerce Department to name a few.
    But you were cutoff when you were going through all of 
these requests. And I would like to hear all of these requests 
that you are getting to provide information on your job. 
Sometimes, do you think, possibly they are trying to obstruct 
your ability to do your job by demanding you to spend the 
majority of your time answering questions about your job?
    And I would like to ask about reinventing government. I 
know that the Vice President--and I supported his efforts--went 
out with a very aggressive campaign to cut back on the number 
of people in government. We now have the smallest government we 
have ever had, and possibly we might look at a new form of 
structuring your office where you have a whole unit that does 
nothing but answer questions.
    Now, I must tell you some people think the census is you go 
out and print a form at a Xerox place. You and I know, Dan, 
this is highly complicated; I spend a lot of my time answering 
questions to my colleagues in Congress. The census is an 
important system. It is an important goal, and it is 
complicated.
    So I would really like you to put in the record and go 
through everybody who is requesting all of this information. 
And I would also like a report from you--I don't want to ask 
for more paperwork, but I would like an estimate of how much of 
your time and your major senior staff time has to go in to 
answering questions.
    We know many people work for the Census Bureau, Dan, but 
only people in supervisory positions can answer some of these 
questions, and so I would like a sense of how much of their 
time--and is this constant demand for information impeding 
their ability to get--as you said, as Dan said, we all say--the 
most comprehensive, largest peacetime effort and mobilization 
ever in our country, the greatest civic responsibility of every 
citizen to be involved.
    And I know that I see the outreach in my own community with 
the Census bus and forms and everything else and my own mail 
that came to me over the weekend. And I did an informal survey, 
all of my staff and a lot of my friends got the form, so it 
seems like the operations are moving forward. People aren't 
criticizing the operations moving forward, but what we appear 
to hear is a complaint that so many different entities are 
asking questions, they aren't getting all of their detailed 
questions answered, some of which may be repetitive and some of 
which may impede the ability to do their job.
    If all I had to do--if I had to respond every day to the 
GAO, Monitoring Board, IGs, and not to mention every 
politician, including myself, and yourself, who are constantly 
asking questions, we couldn't get our job done.
    So I would like to hear in the record how many different 
groups are asking for information, how much information it is, 
do you have the staff to respond to all of these questions. And 
I would just like to give you as much time as you need to 
explain what all of these requests are doing to your time and 
your ability to oversee a very important function of the 
Federal Government.
    Mr. Prewitt. Yes, Congresswoman Maloney. If you will permit 
me, I will start with an anecdote that came to mind as I was 
listening to Chairman Miller's opening comment. Norman 
Bourlaug, who got a Nobel Prize--he was an agronomist who was 
based at a research station in Mexico during the Green 
Revolution; Norman Bourlaug was a very, very important 
scientist with respect to corn breeding. And the headquarters 
used to send him requests all the time for information; and 
Norman Bourlaug finally got frustrated and cabled back--that 
was in the day of cables, in the 1950's--``Did you send me down 
here to grow paper or to grow corn?''
    I sometimes feel as if I had been sent to the Census Bureau 
to produce reports, not to produce a census. And I am very 
anxious about that, because we are in the middle of it now, and 
I want to produce a census for this country, not just produce 
endless reports and site visits.
    Now, that is not an attack on oversight responsibilities. 
That is simply a question of, is the oversight process supposed 
to do real-time auditing and, if so, is that because the 
oversight process can somehow manage the census?
    By the time the auditors finish the work, come back, write 
a report, give it to us for comments, we then comment, and it 
comes down here. And then you have a hearing to tell me that we 
should have done something differently in our recruitment 
system, it is too late. We have already fixed that problem. If 
we didn't fix it, we were in trouble. We are fixing problems 
all day long, every day.
    One of the problems you asked about is how much time. I 
would estimate that in terms of our senior management time when 
we get together to talk two or three times a week about where 
we are, what the issues are, half of our time--and this is sort 
of 9 or 10 people--half of our time is spent in conversations 
about how to be responsive to the GAO, the IG, the 
subcommittee, the National Academy, the advisory committees--at 
least half of our time is spent on those issues. That is a lot 
when you are actually doing a census.
    Regarding your offer to put into the record the actual 
documentation of the requests, let me assemble that 
systematically, and I will provide that for the record.
    Mrs. Maloney. Would you like to elaborate on all of the 
requests that come into your office? I would just like to hear 
about it. What is your day like? Do you go in there, you go to 
work and you get a call that you need another report done?
    I would like you to elaborate on all of these requests that 
are coming in.
    Mr. Prewitt. Surely.
    I would say about a third of the day, a normal day--there 
is no such thing as a normal day when you are actually doing 
the census, about a third of the day are these brushfire 
problems. For example, there are large numbers of Members of 
the U.S. Congress who are concerned about whether they have 
enough of something--enough offices, enough advertising, enough 
recruitment, enough jobs, enough something in their districts. 
So the phone bank and the letters will be coming in from 
Members of Congress, and that is quite separate from official 
oversight. That is one-on-one stuff. It is very time-consuming, 
very time-consuming.
    We tried to be very responsive to Congressman Ryan on one 
issue that was in terms of senior personnel time, including 
myself, other senior people, regional directors; I would say 
the total man-hours that went into that letter could easily 
have been 40, 50 hours. That was one constituent asking one 
question, which turned out to be misframed; he wrote: ``I lost 
6 weeks of salary.'' It turns out 6 weeks ago, he lost 1 week 
of salary, which was made up the next week.
    We get those all the time. We have to do as best we can and 
respond to them. So let us say that is about a third of the 
day, brush fires, not just congressional, all the other brush 
fires, they are going out all over the country all the time, 
all of these small things that come and go.
    Then I would say about a third of the day is spent with the 
official oversight process, one way or the other, either 
getting materials ready for a hearing, getting materials ready 
for a report, having conversations about what we ought to be 
doing and not be doing, how do we handle--for example, let me 
give you an example we just dealt with yesterday.
    There are requests for the--all of the complete count 
committees. There are about 9,000 complete count committees. 
The complete count committees are not ours. They are 
established by local mayors and local Governors. They are not 
Census Bureau complete count committees.
    By what authority do I share the list, with the contact 
name, of these 9,000 committees to somebody who just asked me? 
I don't know what the mailing is going to be to those people. 
They didn't join up to be visited by the GAO or the IG; they 
joined up to try to do a census. Nevertheless, we spent 1\1/2\ 
hours struggling with that issue just yesterday.
    So there is about a third of the day that goes into that 
kind of problem. And then I would think about a third of the 
day actually goes into trying to manage the census, trying to 
deal with the local Census offices that don't have--their 
recruitment is below target. What are we going to do in those 
offices? Do we move people and so forth.
    So I would say that on a normal day close to a third of our 
time is spent with the oversight apparatus, and it comes from a 
large number of sources; and that is different from individual 
congressional requests, because I don't think we put that in 
the same category. These are just questions that are being 
raised by Members of Congress, and by mayors; I put that in 
there too.
    The exciting thing about this census, and it is really very 
exciting--I am very pleased to be here, quite honestly--a lot 
of people think they own this census, a lot of people, 
thousands of people, our partners, our mayors, our Governors, 
Members of Congress, all think that they now sort of own this 
census. That is very healthy for the society.
    We are very excited to be running that kind of census. When 
you share ownership, it creates lots of pressures on you. So 
that is what it is. I will be happy to provide that more 
systematically.
    Mr. Miller. We can do a couple of rounds. Let me recognize 
Mr. Ryan. We will come back and do a couple of rounds, if that 
is all right.
    Mr. Ryan.
    Mr. Ryan. Actually, I was coming prepared to defend you 
today, till I heard that one. Let me----
    Mr. Prewitt. You are an honest man, Mr. Ryan. That won't 
deter you at all.
    Mr. Ryan. Let's clarify what happened in Racine, WI.
    When a senior management person at your local Census office 
in my district of Racine, WI, tells me that many employees 
aren't getting their paychecks, and he sends me a letter to 
that effect, and he is an official of the Census Bureau, I 
think that is a very serious claim, and--I think that is a very 
serious thing. I'm sorry it took you 50 man-hours to figure 
that out. I don't know how long it takes you to figure those 
things out, but that was a very legitimate question.
    Mr. Prewitt. Surely. We took it legitimately.
    Mr. Ryan. I would like to use a military anecdote if I may 
for a second.
    I had the pleasure and opportunity to have breakfast with 
Colin Powell not too long ago, with a handful of other Members 
of Congress, and he laid out for us what he calls the ``Powell 
doctrine.'' The Powell doctrine, basically the lessons we 
learned from the Vietnam War, is that politicians were running 
the war, picking the bombing targets, and we had the whole 
policy of incrementalism--the wrong way to do that.
    What we learned in the Gulf war under the Powell doctrine 
was, let the experts do it, let the experts run the war, let 
the military experts who know how to do their jobs do those 
jobs.
    I think that is an appropriate anecdote for this situation. 
And I really sympathize with what you are doing, and I think 
you are the right person for the job.
    But also we are all concerned about the census. Everybody 
believes we have ownership in the census. This is the greatest 
nonmilitary civic exercise we ever engage in here, so oversight 
is critical; oversight is very important, and it is a 
congressional responsibility to have oversight.
    When we are told by members of the Census Bureau that 
paychecks aren't getting mailed out, whether that is true or 
not, we have to react and do oversight on those things, because 
it is just around the corner. When we have calls and we are 
finding out that we don't have enough people--in Wisconsin, we 
have a very tight labor market; we need more people to fill out 
the applications so that we can get the enumerators out there 
when that happens. We are concerned about that. I have been on 
TV for 3 weeks at home telling people, ``Call, call, call, 
call, please, we need applications.''
    Which leads me to my question, I have here the letter I got 
in the mail about the census. And it is a letter from you 
saying we need help hiring temporary workers throughout the 
United States to help complete the census, call the local 
Census office near you for more information, the phone number 
is available from the directory assistance or on the Internet, 
and then it lists your website.
    I just wanted to ask you--and the complaint I have been 
getting is; I am sure you have thought this through--I want to 
see, why didn't you just put your 800 number in there instead 
of asking people to dial up and pay 75 cents for directory 
assistance.
    I have been given your 800 number, I don't know it by 
heart, I thought I did, but I have been giving your 800 number 
all over the place. Why didn't you just throw the 800 number 
there, which is a national number? It doesn't matter where you 
are, you can call it, and then they route you to your local 
Census office so you can get the information on how you fill 
out that application.
    That extra expense and extra required action, I am fearful 
is going to delay people or just stop people from actually 
inquiring.
    Mr. Prewitt. No. Congressman Ryan, that is a completely 
legitimate question. And I didn't--by the way, if I can return 
to the first part, I thought your question was legitimate; that 
is why we took it so seriously. But sometimes those questions 
actually are stimulated by a pretty little thing. The way it 
got to you, it made it sound like a much bigger problem than it 
turned out to be. We both found out that.
    I don't think the question was inappropriate. I was simply 
using that as a way to suggest the day is full of those kinds 
of things, which, when we look hard at them, they turn out not 
to amount to quite as much as what it appears.
    Mr. Ryan. It is just a helpful suggestion, maybe you don't 
need to have a manager for all of these site visits. I just 
actually popped into the local Census office and just walked 
around and talked to people, asked them how things were going.
    When you responded to my question about this particular 
instance, you sent four people from your Chicago office to 
drive up--to take half a day to meet me in my Racine office, 
when all you could have done is just given me a call and said, 
``Here is what has happened; it has been taken care of.'' That 
took 4 of your man-hours for your regional people driving up 
from Chicago to Racine, WI, to explain that everything is OK.
    It was a nice meeting, but I thought it was kind of a waste 
of time. So I hope you can consider--maybe you can do this in a 
little faster, timely manner.
    Mr. Prewitt. We do take requests from members of the 
subcommittee very seriously.
    To your other question, I think it is a fair question, the 
phone number question. Before you got in the room, I did 
mention that after the advance letter went out, we were getting 
on that website, we were getting about 1,000--100,000 hits a 
week--excuse me, 100,000 hits a day, and it jumped to 1 million 
the next day. So it really has worked.
    I honestly do not have a good explanation for your 
question. Did we have the number at that time? I think we 
simply didn't have the number when that letter was being----
    Mr. Ryan. The 800 number?
    Mr. Prewitt. Right. We have now got that number everywhere 
where we can have it; it is 1-888-325-7733. If everyone is 
listening and they want a census job, that is the number, 1-
888-325-7733.
    I think we simply did not have it. We did not want to route 
them directly to local offices, because you can't do that in a 
letter very well because this is a mass mailing. I think that 
is the simple explanation.
    Mr. Ryan. When you went to print, you didn't have the 800 
number?
    Mr. Prewitt. That is correct.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6613.020
    
    Mr. Ryan. OK. I think we have a vote, so I will just yield 
back my time.
    Mr. Miller. OK. We will take a recess. We have three votes. 
I am guessing we will be back in 20 minutes or so. We will 
stand in recess.
    [Recess.]
    Mr. Miller. We will have the committee reconvene.
    Mrs. Maloney is on her way back, but rather than taking up 
time, let us go ahead and continue. I have some more questions.
    Also in our audience here today is Dr. Barbara Bryant, one 
of your predecessors, who was sitting in the exact seat exactly 
10 years ago. That was before my time involved in Congress.
    So we are glad you could come as an observer. She has 
testified as a witness before, since we had the subcommittee 
recreated.
    Let me switch over to the subject of the prenotification 
letter which we talked about and get some more clarification. 
There are two problems with--the single-digit problem. And the 
other problem--and we are get getting calls into office--is 
this issue about--I think there was in an article in the 
Washington Post that said they wish you had put in an extra 
sentence in English on the bottom of the letter. My neighbor 
next door back in Bradenton called me before I flew back up 
here yesterday, ``What is this about?'' People are confused 
about the envelope.
    So, again, I don't think it is going to affect the end 
result. But it is just a perception problem again.
    Before you came on board, we had a debate on the issue of 
the second mailing, which--I mean, that was a decision before 
your arrival here that was tested in the dress rehearsal. It 
showed, I think, a 7 to 15 percent increase in response. But 
the decision was made. We had expressed our opinion that it 
should go through the second mailing, because this 
prenotification was going to solve the problem.
    Was that ever pretested, the prenotification, as comparable 
to the second questionnaire? Do you know?
    Mr. Prewitt. As follows, Mr. Miller----
    Mr. Miller. What kind of response are you expecting the 
prenotification will help?
    Mr. Prewitt. Exactly. The prenotification letter was 
pretested back in the early 1990's as part of the package; that 
is, the so-called three mailing package; that is, the 
prenotification letter, then the form and then the postcard 
followup.
    And based upon those tests, we estimated that response rate 
could be affected by as much as 6 percent. Most of that, it 
turns out, is attributable to the postcard reminder. You get 
the biggest bump from that.
    The questionnaire bump has to do with the fact that it is 
more user friendly. There is obviously going to be a 
questionnaire, irrespective, but making a more user-friendly 
questionnaire, we thought would increase it. So the 
prenotification letter, it was our estimate that it would 
increase by perhaps as much as 2 percent, somewhere between 
1\1/2\ and 2 percent response rate.
    Mr. Miller. That was for the prenotification letter 1\1/2\ 
to 2 percent?
    Mr. Prewitt. Yes.
    Mr. Miller. How about the post-questionnaire card, as a 
postcard?
    Mr. Prewitt. The postcard, which is basically a thank-you 
reminder, we estimated could be as high as 3 percent. So the 
total package was a 6 percent bump in response rate. Indeed, at 
that time we were estimating the response rate to be about 55 
percent based upon our modeling of the demography and other 
response rates. And it was that combination of three things, a) 
notification letter, b) a user-friendly questionnaire, and c) a 
reminder postcard, that moved us from 55 to 61 percent.
    Mr. Miller. This single-digit problem, it doesn't sound too 
big because it is a single digit, except for 120 times. The 
problem is really a quality check problem, I think. How did 
this stage--can you explain how the quality check did not work 
and what other quality checks are in place to make sure this 
doesn't happen again?
    Mr. Prewitt. Yes, sir.
    The quality check process worked right. The flaw was the 
specification in the quality process.
    Here is what happened: We ran our test deck on the advance 
letter. And it tested out exactly correctly; that is, all 
features of the test letter tested out, including the address 
and so forth. Sometime between that test deck and the 
production run, we were still negotiating about some of the 
language text.
    We were in very active conversation with our advisory 
committee with respect to language. And under their urging, we 
made some modifications in the language. What that meant is, 
you opened up the software. Now the software that got opened up 
was simply the text file software, not the address software, so 
we presumed. And so, after the software was closed and the 
production run started, we then focused upon those things which 
we thought might have changed, i.e., if there was any problem 
in the language translation.
    The other thing we focused on, we actually do approximately 
200 cases every 4 hours of all of our production runs, and we 
pull those cases out, batches of them, send them to 
Jeffersonville, and they run through separate quality control 
processes.
    The quality control processes in Jeffersonville were 
focused exclusively on the parts of the address which were 
operational. We were very concerned that the bar code matched 
front and back, and that the bar code that we had matched the 
address that the Post Office had as its mailing address. All of 
those things tested out perfectly.
    And the mistake in our quality check is that there simply 
wasn't a provision in the quality check to go back and look at 
something which was not operational, except for the language 
part. We went back and relooked at all the language part to 
make sure it was all right.
    And it was simply--it wasn't a failure of the quality 
control. It was a failure of the prespecification, not to 
respect that particular data field.
    Mr. Miller. But it was basically a failure in designing the 
quality check then?
    Mr. Prewitt. In that sense, yes, sir.
    Mr. Miller. Right. Because there should have been another 
quality check that caught that.
    Mr. Prewitt. Of that field.
    Mr. Miller. That is where the problem----
    Mr. Prewitt. It was a specification rather than a failure 
of the process itself. The process worked the way it was 
specified.
    Mr. Miller. The specifications were wrong.
    Mrs. Maloney, we went ahead and started, knowing you were 
right on your way.
    On this same issue, let me go over my time and we will even 
it out here, this question of not putting a sentence at the end 
of the letter saying in English what this was on the back side, 
because people didn't know what the envelope was about unless 
you could read any of those five languages and such. It was a 
question of confusion.
    I think the Washington Post said the Bureau wishes--admits 
they should have done that.
    Mr. Prewitt. Yes, sir.
    Mr. Miller. Go ahead. That was maybe a quality check or 
focus group; why couldn't we have caught that, I wonder.
    Mr. Prewitt. That I would ascribe to a judgment error more 
than a processing or a quality check error. And I can explain 
it, but I don't intend to try to excuse it.
    But the explanation is, quite honestly, that this is the 
first operation that we have put into the census in 2000, which 
was not pretested. And the reason for that is, after the dress 
rehearsal, when we realized we could not do a targeted mailing 
to different language groups, we converted the advance letter 
from simply a prenotification letter to carry the second burden 
of also being the mechanism by which you got the language form. 
So it took on a second task.
    And our attention on making sure it worked well for that 
task was so intense and focused that, quite honestly, we lost 
sight of the fact that it had a different task, which is the 80 
percent of the American population that doesn't speak one of 
these five languages, or the 90 percent or whatever.
    So we were extremely focused upon the language dimension of 
that letter, and so that is why I say it was a judgment error. 
The letter was printed exactly the way we spec'd out. There is 
no problem in the letter itself.
    In retrospect, it certainly should have included a sentence 
which said the envelope is for the people who want a language 
form. The concern at that time--these letters are examined and 
talked about and argued in focus groups and so forth, and the 
concern at that time was, let us keep this letter as--again, as 
clean as possible with respect to its task. And I think if we 
had pretested it, we would have gotten some of the response 
that we have now gotten with respect to the confusion, and we 
would have then changed it.
    But it was an operation that because of when it happened--
it happened after the dress rehearsal, and there simply was no 
time to pretest it. I learned from that--and we had this 
conversation last summer when we were talking about additional 
operations. I learned from that that we simply should not put 
something in unless it is absolutely mandatory because the 
census is at risk. We should not put in operations which we 
have been unable to field test because that is the way mistakes 
get made in a process like this.
    It was an error in judgment, not in process. It is again 
regrettable. I think the only sort of saving grace or--not 
saving grace, but the thing I would mention--we are trying to 
track as best we can the kind of current attitudes of the 
public with respect to the census. And we ran a survey, or some 
partners on behalf of the Census Bureau ran a survey, over the 
weekend just as the letter was coming out. The level of 
awareness is very high, 89 percent of the American public is 
saying they are aware of the census, and that is unprecedented 
at this stage in the census.
    Eighty-four percent can actually describe some of the 
features of a census. It is not only just general awareness, it 
is very, very high. And when you ask the people, are they going 
to cooperate, those numbers are very, very high. That doesn't 
mean it will happen, but at least it is very encouraging.
    We have reason to believe--look, I make no excuse. I don't 
want to sound like I am. On the other hand, the number of calls 
that we have gotten and e-mail is well, well under a percent. 
Almost any mass mailing generates at least 1 percent of people 
that don't like it for one reason or another. So we don't yet 
see this as serious.
    Mr. Miller. Do you log in--we are getting calls in the 
office. It is not large numbers, but other Members are calling 
us about it.
    Mr. Prewitt. Surely.
    Mr. Miller. But do you log in the numbers throughout all 
the----
    Mr. Prewitt. Yes, certainly.
    Mr. Miller. How much----
    Mr. Prewitt. I have only logged in central headquarters. 
Central headquarters in Suitland. I haven't logged in--they are 
certainly occurring in the region as well. But I would say as 
of last night when I checked on this, the central headquarters 
was easily 200 e-mails and phone calls. So it could easily get 
to a million. It could easily get to a percent.
    Whether that will affect the census or not, it is hard to 
say. The forms are on their way. Look, some of the forms are 
already----
    Mr. Miller. It is more of a public relations issue, it is a 
second public relations issue on the first big thing. But the 
advertising has gone--so that is really the earliest public 
communication issue.
    Mr. Prewitt. And all the partnership work, well over half a 
million people have already participated in one of the road 
tour events.
    We have had a series of meetings with ministers lately. The 
Census Sabbath idea is really catching. We think it will be 
really big. It is a public relations embarrassment. I regret 
it, again, as I did the digit problem.
    But if I really believed that it was going to threaten the 
census, I would be doing something, and I simply don't think it 
is.
    Mr. Miller. All right.
    Mrs. Maloney.
    Mrs. Maloney. Dr. Prewitt, could you--what would you 
recommend to respond to, really, the chairman's concern that he 
is raising over wanting more oversight and more transparent 
oversight? What would you recommend could be done that is not 
going to interfere with the professionals doing their job, but 
would address his concerns?
    Mr. Prewitt. Well, I would like to say, both as a citizen, 
as a political scientist, and now as a member of the executive 
branch, I believe very strongly in the oversight 
responsibilities of the U.S. Congress. I have no hesitancy 
about that.
    And I do think if you go back through the GAO reports, if 
you go back through your own committee requests, if you even go 
back looking at site requests, from subcommittee staff, from 
Monitoring Board, to my knowledge, not a single request has not 
in one way or the other been acceded to and responded to.
    Site visits all took place all through the summer, 
successfully. Many of them took a full day, they weren't 1-hour 
visits. They took a full day. We accommodated all of them. We 
have accommodated the Monitoring Board fully thus far.
    So it is not any kind of a resistance to either site visits 
or information flows or what have you. I think the concern I 
have right now is the real-time nature of it, which is that 
they need a lot of stuff right now, and right now is also when 
we are doing the census.
    And so I think my advice to Mr. Miller would be, indeed, 
the advice he gave to me, which was in effect, I believe, it 
would be very effective to have the four key agencies, the 
subcommittee, the GAO, the IG and--all of those three 
especially, and perhaps the NAS that is less central to this 
conversation, convene quickly.
    For example, I am in a bit of a bind, we actually have 
already, we think, worked out with your subcommittee staff 
requests for site visits, but we haven't worked it out yet with 
the Monitoring Board.
    Indeed, I just had during the break a conversation with 
Chris Mihm from the GAO, and he believes that we are 
practically there with respect to an understanding of what they 
need. So there is some sort of disjuncture between the 
commentary and the headway we think we have made.
    But I am now in a bind because I think you are right, it 
will be very useful to all get in the room together and try to 
work out a strategy for the next period. In the meantime, I 
have a letter from Mr. Blackwell, who simply rejects our 
guidelines. Those are guidelines; they are not rules. And I am 
very sorry if the language appeared to be arrogant, I really do 
apologize for that, but they were guidelines to help us do 
this.
    These are guidelines, by the way, that affect only the 
people actually doing operations. They are not the guidelines 
for coming to Suitland. They are not the guidelines for getting 
data. They are only guidelines affecting people who are doing 
something, training or recruiting or delivering forms or 
checking in forms.
    And I really cannot have those peoples' schedules disrupted 
without some sort of warning, some sort of preparation for 
that. I think if you brought me back here in 2 or 3 weeks and 
we were having a serious operational problem, because we spent 
so much time dealing with people who needed to be visiting us 
and oversighting and so forth, then it would not be a very 
happy hearing.
    So I think my advice, Congresswoman Maloney, is to have the 
meeting as quickly as we can, that Congressman Miller 
recommended, and try to have that in such a way, by the time 
you have a hearing on the 23rd, there will be no questions 
about transparency. Because I really do not think there are 
questions about transparency; I think there are questions about 
whether you can do a real-time audit of an operation that is as 
complicated as census 2000.
    Mrs. Maloney. In terms of oversight, Mr. Chairman, I would 
like to hear from the Monitoring Board, both sides. What is it 
they are looking for and what are they doing? I think it would 
be appropriate that we not only have the GAO in to report to us 
and Mr. Prewitt to report to us, but the Monitoring Board, 
which we funded quite generously, if I recall. What are they 
doing?
    What I think is interesting in all of this oversight--and 
it continues and I believe in oversight--that none of it has 
focused on any, ``major problem,'' nor has it found any, 
``major problem.'' It has just been a review and a report on 
the census that seems to be going forward, and in the process 
that it was supposed to do.
    And I would just like to focus on some good news for a 
while. I know that last year at about this time we had just had 
a Supreme Court ruling; we were in a partisan fight over the 
funding of the census. And, quite frankly, now we are in a very 
positive framework. We have the funding. We have mailings that 
are going out, what I received, my staff received, that the 
advertising campaign is going forward. I think the new vans are 
an incredibly positive addition to the outreach to the 
community. I think they are very effective. You could use more 
of them.
    Could you just give us some good news of what is happening 
at the Census Bureau? Can you just tell us some good projects 
that are happening and some good news about what is happening?
    Mr. Prewitt. Well, as you said, the promotional activity is 
really very well advanced. I think the number of school kits, 
for example, which are out there, about 1.5 million--as I said, 
about half a million people have already visited the road van 
tour, that is, visited, done something, interacted with the 
van, not just seen it.
    I just shared with you some survey data, where I want to 
make sure I said it right: 85 percent had seen or heard about 
the census and had some reasonable level of information about 
it; and about 86-87 percent said they would definitely or 
probably return the census form.
    There is a residual 4 or 5 percent who are saying no. A 
census is always about the last 5 percent, always about the 
last 5 percent. Whether it is a problem with recruitment, 
whether it is a problem with the response rate, whether it is a 
problem with any operations, it is always the last 5 percent 
that is the challenge for a census, which has to go to 100 
percent.
    Nevertheless, I am very gratified and encouraged by the 
level of public attention and positive attention that the 
census has already received.
    Most importantly--and I will return to my written testimony 
here--the issues that we deal with all day long, everyday, from 
bomb threats to public relations problems, to local Census 
offices where we need to improve our recruitment rate, all of 
those are manageable problems.
    We have yet to hit a problem that is going to, as I say, 
somehow put the census at risk. It may happen tomorrow. But as 
I sit here today, we have not hit that problem. I think we are 
poised to have a very successful census, a higher-than-expected 
response rate. It doesn't mean we will get 100 percent response 
rate, of course.
    And to go back to Chairman Miller's comment, if I could, 
about nonresponse followup, obviously, if we have a higher-
than-expected response rate, it is going to help us enormously 
in the workload during nonresponse followup.
    To go back to the 1990 numbers, my recollection is that we 
planned nonresponse followup for 6 weeks, not 10 weeks; in 
certain offices it took 16 weeks, but the actual plan was only 
for 6 weeks. So we actually have added 4 weeks to nonresponse 
followup in the 2000 design from 1990, a longer period. And as 
I have testified before, Mr. Miller, we will keep counting 
until we have exhausted our procedures. And if that takes all 
summer, we will count all summer. We will count until we have 
exhausted our procedures.
    I appreciate that that is not your view; the one that you 
quoted, I really do appreciate it is not your view. I really do 
appreciate that that view is out there. But I don't think that 
a lot of site visits in March are going to make people feel 
better--the only way we can prove that is by doing it, come the 
end of June and the early part of July. We have got to prove it 
by simply doing it, and we will do it.
    Mrs. Maloney. Earlier you made mention--and both of us have 
commented, and I must compliment the chairman for his really 
very sound statements on the official census mailing that 
mimicked, it was a fundraising letter for the Southeast Legal 
Foundation. It was mimicked, and it actually looked to me like 
an official mailing.
    And I really want to know, do you think more of these type 
of shenanigans will take place, and how disruptive are they to 
the official census?
    Mr. Prewitt. It is very hard for me to anticipate. You 
didn't ask me, but I will answer this question anyway--what 
keeps me up awake at night? It is not recruitment. What keeps 
me awake at night is some public event which confuses the 
American people seriously about the census.
    As I cited in my testimony, if a hacker broke in not to the 
census, but to some other government file and suddenly the 
American people really did believe that government information 
was not protected, that would hurt us seriously for that in the 
next 2 or 3 days.
    I will give you another example. We learned just yesterday 
that another mailing, a large mailing, a large mass mailing has 
the same digit problem as the one that we experienced. And so I 
woke up this morning shaking that somehow the story would be 
told that the Census Bureau had sold its mailing list, how else 
could this mistake happen again?
    Clearly, that is a complete falsehood.
    Those are the things that make me anxious. A public story 
that I know to be wrong, but happens at just the wrong moment, 
and we can't get it fixed: I am much more frightened of that 
kind of event or outcome and natural disasters, of course, than 
I am right now about any of our operations. Our operations are 
on schedule, on track, on budget.
    Mrs. Maloney. You may not have any information on this, but 
if you do, I am curious about how recruitment compares to 1990, 
when we had a much weaker economy. Do you have any comparison 
as to how recruitment is going now, compared to when we had 
more unemployed people?
    Mr. Prewitt. I start by reminding the committee that with 
the active support of the U.S. Congress, very active, important 
support of the U.S. Congress, we have front-loaded our 
recruitment system. That is the huge change from 1990. In 1990 
it wasn't that our rates were so bad, it is that you have high-
level attrition, and then you are scrambling to fill those 
empty positions. By allowing us to front-load, bear in mind, we 
are hiring two people for every one person we need. Now is that 
a waste of money? No. If they all come to work and do the job, 
we just get finished quicker. We will still put them to work. 
But the attrition levels thus far in our early staffing of our 
offices and so forth have been quite modest. They were modest 
in the dress rehearsal. So I would say our overall recruitment 
plan, as well as recruitment rate, is much, much more robust 
than 1990.
    Again, every day I say, ``Look, it is looking good, we are 
at 70 percent or 74 percent.'' That doesn't mean that tomorrow 
it won't go dry. You don't know how deep that well is. But 
every day we get more calls, as I just said, a million hits to 
our website just the day before yesterday.
    So we think there is a large enough pool out there to 
recruit. If we have to change wage rates in some areas or do 
some other kinds of emergency action, we will do it.
    Mr. Miller. Let me ask some more questions on this 
recruitment issue.
    As we both know, national numbers tell you one thing, but 
it is really a very local issue. What happens in Bradenton, FL, 
my own home, versus Manhattan--you can't transfer the 
enumerators from Manhattan to Bradenton. They might want to 
come to Bradenton, it is a beautiful area. You have been there, 
a little Chamber of Commerce plug there.
    So based on news, the media reports and such about the 
different areas, there are articles here in the city of 
Washington, as I mentioned, and such and in New York City.
    What percentage of the 520 offices are having problems? And 
can you give us a description of what those are? Are there any 
common characteristics, ones that are having problems and such?
    Mr. Prewitt. Yes. As of March 1st--no, sorry, March 3rd, so 
this is fairly recent data, we have a four-layer classification 
system when we are looking at local recruitment, with green 
being we feel good, we are really close to target; yellow being 
we have got to pay a little bit more attention; orange being 
nervous making; and red being take emergency action.
    As of March 3rd, we had five LCOs in our emergency action; 
that is in our red category. That is, of course, less than 1 
percent. It doesn't make them insignificant.
    As I say, the problem of a census is always that last 5 
percent. But the good thing about those five cases is that they 
are scattered. It is not like they are all in Atlanta or they 
are all in New York; they are all scattered. In fact, I don't 
think New York has one of these five.
    One or two of the five are much less of a problem than what 
they appear to be. For example, one of them is the LCO in the 
near north side of Chicago. Now, that LCO covers an area which 
is actually going to have a higher response rate than the city 
of Chicago, but it is targeted to have the same response rate 
as the rest of the city because we didn't break them out in 
anything like that level of detail. Even though it appears in 
red, we don't believe it is a red, but we are treating it as 
one, nevertheless.
    Then there are about 17 percent--well, let me say, all 
together, about 30 percent are in the yellow-orange category, 
where we do believe we have to take exceptional action, and 
that includes everything from sending out expertise to doing 
more advertising and so forth. These numbers fluctuate every 
week. Some move up and some move down, because that target is 
still climbing.
    So you are actually right, Mr. Chairman. Obviously, you can 
get a big national picture that looks very good, 74 percent, we 
only need 70 at this stage, but there is variation around that, 
and you have got a tail. You have got a small number of cases 
which are problems, and some of those get picked up in the 
press--some of them incorrectly, by the way, I have to say; 
sometimes the press being used by our local recruitment people 
to tell a more frightening story than actually exists in our 
numbers in order to generate a public response.
    We found two or three cases of that. We weren't 
particularly happy about it, but nevertheless we understand 
from a local level why they did it.
    And I don't mean, again, to paint a rosy picture. But of 
the things that worry me right now--and I would not have known 
this a month ago. I would not have known a month ago that I 
could sit here today and say now that we are into it, 73,000 
people are out there distributing the questionnaires, but that 
the operation that has to be staffed is staffed.
    We fully staffed Alaska on schedule. I believe we will 
fully staff nonresponse followup on schedule.
    Mr. Miller. How about these hard-to-count areas? Are your 
staffings doing OK?
    Mr. Prewitt. The pattern is not staffing. The near north 
side is not a hard-to-count area. The pattern is not 
disproportionately in the hard-to-count areas.
    Mr. Miller. In the last question you mentioned front-
loading--this one article was saying they have to call 10 
people on the approved list before--you only get 1 out of 10, 
and the question concerns the shelf life of this applicant 
pool.
    Explain to me the process. I mean, I have heard this: 
People take the test, they get accepted, but you really don't 
need them; and then you may not even call them for 2 months, 
and they don't know.
    How are we keeping in touch with these people, letting them 
know they are in the pool?
    Mr. Prewitt. It is a serious problem, as a matter of fact. 
We think of this recruitment pool the same way you might think 
of a military draft. You draft everyone, but you don't call 
everyone. But when you are going to war, you don't know for 
sure how many you are going to need and when you are going to 
need them. You want the pool of draftees in place. Well, what 
we have done is created a very large pool of draftees, in 
effect.
    It certainly goes stale. We do make calls, people say, no, 
I have already taken a different job and so forth. So our 
expected ratio is only 1 out of 5; that is, we want a 
recruitment pool of, in fact, even less than 1 out of 5, 1 out 
of 6, a recruitment pool of 2.4 million for about half a 
million jobs. So roughly a 5-to-1 ratio.
    So that is a pretty high ratio, as a matter of fact. I 
mean, there has got to be an awful lot of decay of that pool 
before we get down to having none or having fewer than 500,000.
    I saw that same story, as a matter of fact, 1 out of 10. 
That really did surprise me. That doesn't mean it did not 
happen, but that is not a pattern, that we are only getting 1 
out of 10 of our calls when we actually call people.
    The other issue you addressed is the issue of keeping in 
touch with them. We don't. It would just be prohibitively 
expensive to always be writing them and saying are you still 
available, are you still available, and then they get angry at 
us because we haven't called them. There are unhappy people out 
there who said, ``I took the test; I passed it. They say they 
want jobs. They continue to advertise, yet they don't call 
me.''
    We explain that when people take the test. I have the 
materials here which say exactly what we say to them, and not 
everyone internalizes that. And they read the ad and they say, 
why don't they call me. That is an issue, but there is not much 
we can do about it.
    When we need to have them there is on April 19th. We needed 
them on March 1st to do the training for update leave; they 
were there. We will need them on April 19th when we start 
nonresponse followup. As we get closer to nonresponse followup, 
going to the response rate issue, if the response rate is at 
our 61 target, we are going to need all half million of them. 
We will start earlier than the 19th with some kind of reminder 
system to make sure that they are going to be there.
    Mr. Miller. They are going through training now?
    Mr. Prewitt. No, the update/leave people went to training.
    Mr. Miller. The update/leave people went to training.
    How long ago would it be that some of these people took the 
test? Does it go back to last year?
    Mr. Prewitt. The testing really didn't much start until 
January.
    Mr. Miller. Some may have taken the test in January and got 
approved in January and then----
    Mr. Prewitt. Maybe 6 months before we call them.
    Mr. Miller. It could be as much as 6 months?
    Mr. Prewitt. Yes. Now, a lot of the people who did the 
early testing, of course, were people who were brought into our 
office to work. And we did staff up our offices and, of course, 
then update/leave, but only in those areas.
    There are people who will have taken the test as long as 6 
months before they are called. But we would not want to write 
them and say we don't think we are not going to need you, 
because we won't know that.
    To go back to your other point, you are talking about 
response rates which themselves are highly variable. You are 
going to be 85 percent some places and 45 percent other places. 
So we don't know for sure what those places are going to be.
    We can't take a chance on telling someone we don't need 
them until we know for sure where they will be needed.
    Finally, on your question of moving people from New York to 
Bradenton, as you well know, we very much want to recruit from 
and use staff in the local community. As a last resort--we 
probably wouldn't move that far, but as a last resort, we would 
have to dip into our pool, where we had a deeper pool, to move 
into areas where we had a shallower pool and pay the 
transportation costs. We would still take care, of course, to 
match up the cultural, linguistic, racial characteristics and 
so forth, best as we could.
    Mr. Miller. I have a couple more questions, but if you want 
to go first.
    Mrs. Maloney. Sure. The ``90 Plus Five'' program you 
outlined in your testimony sounds like a very good idea, a 
creative way of getting communities across the country involved 
in boosting their response rates. And do you have any idea how 
much money you can save if the program goals are met?
    Could you just elaborate a little more on the ``90 Plus 
Five'' program, another accomplishment I would say?
    Mr. Prewitt. We obviously are very excited about that 
program for two reasons, one of which is, it does have real 
operational and cost savings implications, but also it is a 
rallying cry. And I have been very, very pleased by the level 
of adoption by mayors and Governors around the country. It 
really is a rallying cry, the census as a civic event.
    And it is working that way. I am going off tonight, as a 
matter of fact, and I will be making, I think as many as six or 
seven different stops in Virginia and North Carolina. Each one 
of those is built around the ``90 Plus Five'' notion, with 
mayors and complete count committees and other kinds of 
promotional settings. If it were successful, that is, if we 
actually added 5 percent to 1990, that is a 70 percent response 
rate. That is a 9 percent increase from our current target.
    Now, you have heard the number before, that each percentage 
point is worth maybe as much as $25 million; that is a hard 
number to estimate because it is not exactly linear, but that 
is order of magnitude. So if we actually were to be that 
successful, we would save many multiple millions of dollars for 
the taxpayer if we could actually increase the response rate to 
70 percent. It would also be good for the country along other 
dimensions, of course, not just the money-saving dimension.
    Mrs. Maloney. The Bureau conducted a four-site test, full-
load test of the data capture system during the week of 
February 22nd. And the system was supposed to be fully 
operational as of March 6, 2000, last Monday. Would you 
describe the test for us? What was involved? What sorts of 
equipment were tested? What type of personnel was engaged? What 
is full load?
    Mr. Prewitt. Yes. What that test does is bring up all four 
of our data capture sites and test them as if they were now 
pumping the material through at the rate at which we will have 
to pump it through during the data capture period itself.
    It is our final major test to the data capture system, 
which is, as we know, a highly technical system. A lot of forms 
come in wrinkled or smudge marked; all of the kinds of things 
that can make it difficult to capture those data; and I can 
only say that it all tested out just exactly the way we 
expected it to.
    Early on in an earlier test, in Pomona I believe it was, 
our capture rate--our productivity rate was less than what we 
wanted it to be. We retested that later in Phoenix, and it 
moved up to expected levels; and then we retested it in our 
four-site test, the entire system simultaneously.
    It is right now--again, I keep wanting to go back. It 
doesn't mean that tomorrow morning we won't learn something, 
but as of right now, the data capture system is functioning. We 
are now capturing data; we are recording stuff as it is coming 
in. As I said, we have 500 forms already accepted over the 
telephone, just in the first couple of days.
    People are filing by Internet. I don't have the number on 
that, but it certainly is working. I used it myself. So the 
systems are functioning.
    Mrs. Maloney. Both the chairman and I are very supportive 
of Census in the Schools. In fact, we even introduced a 
resolution supporting it in a bipartisan and joint way.
    Could you give us a little more detail on how the program 
is working? How many schools and teachers are involved? And 
what percentage of the students do you estimate have been 
reached and will be reaching their parents, and have the 
materials been delivered? Has Scholastic performed well on 
their contract? And can you just give us an overview of it?
    Mr. Prewitt. Surely. Just quickly on Scholastic, as the 
subcontractor on that thing, they performed very, very well, in 
terms of--we thought in terms of curriculum--the construction 
of the curriculum, the imaginative design and so forth.
    There was a period where we were experiencing severe 
backlogs in getting the materials to the school. We are now 
past that backlog completely. We have now got a lag time of 
only about 3 days before an order comes in and the kit goes 
out.
    I think that the number of kits now out are at 1\1/2\ 
million; that is a huge number of schools. The chairman and I 
did a really quite attractive Census in the Schools event in 
his district with very sophisticated kids. I must have done 15 
or 20 of them already, about half of them with Members of 
Congress.
    For me, they have been some of the highlights of the census 
period. I think it is going to be one of the most important 
things. Look, the kids are really good Ambassadors for the 
census. And if they go home with this message, then we are 
going to get a higher response rate and especially we--as you 
know, we targeted the hard-to-count areas. We are 100 percent 
in all of those areas. We are obviously not 100 percent across 
the entire country, but we are 100 percent in the hard-to-count 
areas, which is roughly 40 percent of the schools, which is how 
we calculated that. So we are feeling very good about that 
program.
    Mrs. Maloney. My time is up.
    Mr. Miller. OK. You mentioned Census in the Schools. I did 
another one recently in Venice, FL, in an elementary school; 
and I had all the third, fourth and fifth grades come in the 
cafeteria, and they brought a pencil. And I talked, and we had 
the map that you make available; and they had two questions 
that I had to help the students with and--in particular, it 
makes me think about, because you had to list who else was in 
your household.
    The one young boy says, ``Do I count my dog?'' I can answer 
that.
    The other one was more difficult, and this is the type of 
questions you have: The child lives with the mother 3 days a 
week and the father 4 days a week, and the next week is just 
reversed; ``Who do I get counted with?'' Those are some of the 
questions. And the mother and father may not talk well.
    So there are a lot of challenges you are very aware of, but 
it just came up in that particular hearing.
    Mrs. Maloney just brought up the Data Capture System. I 
know GAO considers that one of the great concerns right now, 
and they will be testifying again next week. I don't know their 
latest feeling on it. When the test was run here in February, 
did it--was it the entire system from when the forms come out 
of the trucks and load it up and all the way through? Are you 
comfortable that the data capture system is going to work?
    Hopefully, Mrs. Maloney and I can make a trip to one of 
them during the peak of it and get a chance to see it in 
operation, because it has to be amazing to see that volume of 
operation.
    Mr. Prewitt. Could I just take an extra 2 minutes and ask 
John Thompson to say a word. He is much more familiar with that 
test than I am.
    Mr. Miller. Mr. Thompson.
    Mr. Thompson. What we did was, we ran about 2.2 million 
forms per day through our scanners, and then we processed them 
through the remainder of the process, including transmission of 
the captured data to headquarters, simultaneously to make sure 
that all sites worked. That was the workload--actually, the 
million forms per data headquarters was the workload that we 
anticipate that we have to meet for census 2000 processing. And 
the test went very well.
    The one thing we didn't test was the sorters. We didn't put 
the questionnaires back into the envelopes. But we have tested 
the sorters extensively, and we used them in 1990, so the 
sorters haven't changed very much.
    Mr. Miller. How about different handwriting and such?
    Mr. Thompson. Yes, we tested a variety of different 
handwritings to make sure that the optical character 
recognition could catch it, including a variety of multiple 
race responses.
    Mr. Miller. Since C-SPAN is covering this, I might want to 
make sure that you are introduced. You have been sitting behind 
Dr. Prewitt in the past several hearings while he testified. 
But you are the one with the responsibility and had the task 
and you have been in charge of this.
    When were you first appointed to this position?
    Mr. Thompson. I believe I was appointed in 1998 to the 
position I am currently in.
    Mr. Miller. 1998. Tough job.
    Mr. Thompson. I have been working on the census since----
    Mr. Miller. You are a career.
    Mr. Thompson [continuing]. Since 1980.
    Mr. Miller. You have been with the Bureau for a long time. 
I think this may be your first time to actually talk to the 
committee. Thank you very much. It is a tough job, and you do a 
fine job there.
    I have one more question. It came up in your comments, and 
I mentioned it too in the Salvation Army, the access to 
facilities serving special populations such as the Salvation 
Army. How much of a problem is that? Is there anything we can 
do to move this along?
    Mr. Prewitt. I appreciate that offer, Mr. Chairman.
    No, I actually have been in very close touch with the 
highest lieutenant colonel, I believe he is called, of the 
Salvation Army. It is an understandable reluctance. Their 
judgment is that when people are eating, that this is something 
which is private. It is not a confidentiality issue. It is a 
privacy issue.
    And they are concerned that if the people who are actually 
sitting in the dining halls and having their meals are being 
enumerated that that will create a deterrent for them to come 
in and get the meal.
    The Salvation Army has been completely cooperative with 
respect to counting all of their residents, all the people who 
sleep there. But it is just this one issue of the people, 
actually while they are eating their meal. So what we have 
worked out with the Salvation Army is that these people do 
queue, they do get into a line before they come into the dining 
hall or the soup kitchen, and we will be able to count during 
that period.
    I should remind you that the primary count of the people 
without conventional housing, as we say, or the homeless, is 
based on where they sleep, not where they eat. Where they eat 
is only an extra safety net in case we miss some people who 
don't use any shelters. If the people are sheltered, we think 
we will get them in the shelters.
    These are really the people who don't go to the shelters, 
but do come in and do get meals. We are still trying to count 
the people who are sleeping in the park or sleeping on the 
beach. We fear we will not get all of them. So this is an 
extra, extra step. Indeed, we have to ask the people we are 
counting, as they get the meal, have you already spent a night 
in a shelter, because if they have, then we would not be 
including them in the count.
    So it is a very small problem, and we think we will solve 
it.
    Mr. Miller. Let me thank you for your assurance a few 
minutes ago that you are going--as far as close out, you are 
going to stay in the field as long as it is necessary to get 
the possible count. I appreciate your public assurance of that.
    Mrs. Maloney, do you have any final questions?
    Mrs. Maloney. No. I have enjoyed this. I look forward to 
the GAO reporting, and again would like to request that the 
chairman call the Monitoring Board, both sides, to come in and 
report to us.
    I think that is a legitimate oversight of our body, too, to 
look into what the Monitoring Board is doing.
    Mr. Miller. I think we have a hearing tentatively scheduled 
for the issue of this access. This is a serious--whether it is 
real or perceived, it is certainly perceived; and I think we 
need to get to the bottom of it.
    I think I see Mr. Fred Asbell, who is with--at least on the 
congressional side of the Monitoring Board here. I think Chris 
Mihm was here earlier, certainly; I don't know if he still is. 
There, he is there.
    I know you all don't have your calendars, so you can't do 
it today, but I almost like to say--to pin you all down. But if 
you could get it put together as quickly as possible, I would 
like to get this behind us.
    I think we are getting to some critical stages, as you 
know, going into the summer. We don't want to do anything to 
interrupt or interfere with the census, but we do have a 
responsibility to make sure that we know everything we can, and 
a lot of it is gearing up for how do you do. A lot of times 
this information is needed.
    So I thank you for being here today.
    On behalf of subcommittee, I would like to thank you for 
appearing before us today. I ask unanimous consent that all 
Members' and witnesses' written opening statements be included 
in the record. Without objection, so ordered.
    In case there are any additional questions that Members may 
have for our witnesses, I ask unanimous consent for the record 
to remain open for 2 weeks for Members to submit questions for 
the record, and that witnesses submit written answers as soon 
as practicable. I would like to submit the Census Monitoring 
Board's congressional Members' request for oversight materials, 
mentioned in my opening statement for the record. I am also 
submitting the observation guidelines issued by the Census 
Bureau for the record.
    And, Mrs. Maloney, you had something which will be included 
in the record. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6613.021
    
    [GRAPHIC] [TIFF OMITTED] T6613.022
    
    [GRAPHIC] [TIFF OMITTED] T6613.023
    
    [GRAPHIC] [TIFF OMITTED] T6613.024
    
    [GRAPHIC] [TIFF OMITTED] T6613.025
    
    Mr. Miller. Thank you again. And I will see you at the 
Appropriations hearing in a couple of weeks. The meeting is 
adjourned.
    [Whereupon, at 3:35 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T6613.026

[GRAPHIC] [TIFF OMITTED] T6613.027

[GRAPHIC] [TIFF OMITTED] T6613.028

[GRAPHIC] [TIFF OMITTED] T6613.029

[GRAPHIC] [TIFF OMITTED] T6613.030

                                   - 

</pre></body></html>
